CERTIFICATE OF SERVICE
NO. 20-107
Cedar Point Nursery, et al.
Petitioners,
v.
Victoria Hassid, et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMAET AL.AMICUS AT MERITS STAGE IN SUPPORT OF PETITIONER(S), by mailing three (3) true
and correct copies of the same by Federal Express, prepaid for delivery to the following addresses:
Joshua Paul Thompson
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
(916) 419-7111
jthompson@pacificlegal.org
Counsel for Cedar Point Nursery, et al.

Joshua Patashnik
California Department of Justice
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
(415) 510-3896
josh.patashnik@doj.ca.gov
Counsel for Victoria Hassid, et al.

Lucas DeDeus

January 7, 2021

SCP Tracking: Cleveland-313 NE Twenty-First Street-Cover Light Green

